                                                                             Report No. DODIG-2014-059


              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              APRIL 15, 2014




                     DoD Efforts to Meet the
                     Requirements of the Improper
                     Payments Elimination and
                     Recovery Act in FY 2013




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                           Results in Brief
                                           DoD Efforts to Meet the Requirements of the Improper
                                           Payments Elimination and Recovery Act in FY 2013



April 15, 2014                                                  Finding Continued

Objective                                                       Furthermore, DoD did not meet the reduction targets for
                                                                five of its eight payment programs with established targets.
We determined whether DoD complied
with Public Law No. 107-300, “Improper                          The USD(C)/CFO also met the Office of Management and
Payments Information Act of 2002,”                              Budget requirement to report information on its efforts to
November 26, 2002, as amended by Public                         recapture improper payments within the DoD FY 2013
Law No. 111‑204, “Improper Payments                             Annual Financial Report.
Elimination and Recovery Act of 2010,”
July 22, 2010 (IPERA). The audit was
required by Public Law 111-204.                                 Recommendations
                                                                We recommend that the Under Secretary                     of    Defense

Finding                                                         (Comptroller)/Chief Financial Officer, DoD:

The Office of the Under Secretary of                               •	 work with Military Departments and Defense Agencies
Defense       (Comptroller)/Chief Financial                           to develop metrics and quality assurance goals as well as
Officer, DoD (USD[C]/CFO) met five                                    programmatic corrective action plans, including holding
of the six requirements of the IPERA.                                 those officials financially liable where appropriate;
Specifically, DoD:
                                                                   •	 submit a remediation plan to the appropriate
      •	 published an Annual Financial Report,                        congressional committees as required by IPERA; and

      •	 conducted    program-specific                   risk      •	 coordinate with the Director of Office of Management
         assessments,                                                 and Budget to review the Defense Finance and
                                                                      Accounting Service Travel Pay program and determine
      •	 published corrective action plans,                           whether additional funding would help the agency
                                                                      comply with Public Law 111‑204 for meeting payment
      •	 published improper payment estimates,
                                                                      reduction targets.
         and

      •	 reported improper payment rates of
                                                                Management Comments and
         less than 10 percent.
                                                                Our Response
However, DoD’s inability to ensure all
                                                                The Deputy Chief Financial Officer provided comments in
required payments were reviewed resulted
                                                                response to a discussion draft of this report. Management
in unreliable estimates and rates. 1
                                                                comments addressed all specifics of the recommendations
                                                                and no further comments are required. Please see the
	1	
      We plan to issue another report that will address the     recommendations table on the back of this page.
      completeness of the payments used for the estimates.

Visit us on the web at www.dodig.mil


                                                                           Report No. DODIG-2014-059 (Project No. D2014-D000CJ-0065.000) │ i
                   Recommendations Table
                                                                     Recommendations       No Additional
                                        Management                   Requiring Comment   Comments Required
                    Under Secretary of Defense (Comptroller)/Chief                       1.a, 1.b, 2.a, 2.b, 3.a,
                    Financial Officer, DoD                                               3.b, 4.a, 4.b, and 5




ii │ Report No. DODIG-2014-059 (Project No. D2014-D000CJ-0065.000)
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                April 15, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
               	 FINANCIAL OFFICER, DOD
               ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               DIRECTOR, DEFENSE HEALTH AGENCY
               CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

SUBJECT:	 DoD Efforts to Meet the Requirements of the Improper Payments Elimination and
          Recovery Act in FY 2013 (Report No. DODIG-2014-059)

We are providing this report for your information and use. The Under Secretary of
Defense (Comptroller)/Chief Financial Officer, DoD, met five of the six requirements of the
“Improper Payments Elimination and Recovery Act of 2010.” However, DoD did not meet
the reduction targets for five of the eight payment programs with established targets.
In addition, DoD’s inability to ensure that all required payments were reviewed resulted
in unreliable estimates and rates.

We considered management comments on a discussion draft of this report when
preparing the final report.  The management comments conformed to the requirements of
DoD Directive 7650.3; therefore, additional comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8901 (DSN 664-8901).




	 Daniel R. Blair
	 Deputy Inspector General
		 For Auditing




                                                                                Report No. DODIG-2014-059 │ iii
                   Contents
                   Introduction
                   Objective__________________________________________________________________________________________1
                   Background on the Improper Payments Elimination and Recovery Act ____________________1
                   Review of Internal Controls_____________________________________________________________________2

                   Finding. DoD Complied With Five of the
                   Six Improper Payments Elimination and
                   Recovery Act Requirements__________________________________________________4
                   DoD Published an Agency Financial Report for FY 2013_ ____________________________________5
                   DoD Identified Nine Payment Programs Susceptible to Improper Payments_______________5
                   Corrective Actions To Further Reduce Improper Payments__________________________________6
                   DoD Published Improper Payment Estimates But Data Accuracy Concerns Exist__________7
                   Reported Improper Payment Rates Were Below the Office of Management
                   and Budget Established Threshold_____________________________________________________________8
                   DoD Did Not Meet Improper Payment Reduction Targets for Five of Eight
                   Payment Programs_______________________________________________________________________________8
                   DoD Also Met an Additional Office of Management and Budget Requirement
                   To Report on Efforts To Recover Improper Payments_______________________________________ 11
                   Conclusion______________________________________________________________________________________ 12
                   Remediation for Non-Compliance____________________________________________________________ 12
                   Recommendations, Management Comments, and Our Response__________________________ 13

                   Appendix
                   Scope and Methodology_______________________________________________________________________ 16
                         Use of Computer-Processed Data ______________________________________________________ 16
                         Use of Technical Assistance______________________________________________________________ 17
                         Prior Coverage____________________________________________________________________________ 17

                   Management Comments_____________________________________________________ 18
                   Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer, DoD ________ 18

                   Acronyms and Abbreviations______________________________________________ 22


iv │ Report No. DODIG-2014-059
                                                                                                                                        Introduction




Introduction
Objective
Our objective was to determine whether DoD complied with Public Law No. 107-300,
“Improper Payments Information Act of 2002,” November 26, 2002, as amended by
Public Law 111-204, “Improper Payments Elimination and Recovery Act of 2010,”
July 22, 2010. The audit was required by the 2010 Act. See the appendix for our
scope and methodology and prior coverage.

We will issue a separate report on this subject for the ongoing audit of “DoD
Methodologies for Determining Improper Payment Rates Under the Improper
Payments Elimination and Recovery Act” (Project No. D2014-D000CJ-0105.000).


Background on the Improper Payments Elimination and
Recovery Act
On July 22, 2010, the President signed Public Law 111-204, “Improper Payments
Elimination and Recovery Act of 2010” (IPERA), which amended the “Improper
Payments Information Act of 2002.” The Office of Management and Budget (OMB)
issued Circular A-123, Appendix C, “Requirements for Effective Measurement and
Remediation of Improper Payments,” Parts I and II, April 14, 2011, as guidance for
agencies to implement the requirements of IPERA.


IPERA Compliance Requirements
IPERA section 3(a) states that the term “compliance” means that the agency:

               •	 published an annual financial statement for the most recent fiscal year
                   and posted that report and any accompanying materials required under
                   OMB guidance on the agency website;

               •	 conducted a program-specific risk assessment for each program or activity;

               •	 published improper payments2 estimates for all programs and activities
                   in the accompanying materials to the annual financial statement;

	 2	
       An “improper payment” is any payment that should not have been made or was made in an incorrect amount under statutory,
       contractual, administrative, or other legally applicable requirements. Incorrect amounts are overpayments or underpayments
       made to eligible recipients (including inappropriate denials of payment or service, any payment that does not account for
       credit of applicable discounts, payments that are for an incorrect amount, and duplicate payments). Improper payments
       also include payments made to ineligible recipients or for ineligible goods or services, or payments for goods or services not
       received (except for such payments authorized by law). Improper payments also include payments when an agency’s review is
       unable to determine whether the payments were proper as a result of insufficient or lack of documentation.




                                                                                                                         Report No. DODIG-2014-059 │ 1
Introduction



                                •	 published programmatic corrective action plans that the agency may
                                  have in the accompanying materials to the annual financial statement;

                                •	 published   improper   payments   reduction   targets   that   the   agency
                                  may have in the accompanying materials to the annual financial statement
                                  for each program assessed to be at risk, and is meeting such targets; and

                                •	 reported an improper payment rate of less than 10 percent for each
                                  program and activity for which an estimate was published.

                  OMB implementing guidance added an additional requirement for determining
                  agency compliance. Specifically, OMB Circular A-123, Appendix C, Part I, requires
                  agencies to report information on efforts to recapture improper payments.

                  IPERA section 3(b) requires the Inspector General to annually review and determine
                  agency compliance with IPERA. Implementing guidance requires the office of the
                  agency Inspector General to submit a report with its determination on the
                  agency’s compliance to the head of the agency, Senate Homeland Security and
                  Governmental Affairs Committee, House Committee on Oversight and Governmental
                  Reform, and Comptroller General, on an annual basis within 120 days of the Agency
                  Financial Report (AFR) issuance.

                  If an agency did not meet one or more of these requirements, then the agency
                  was not compliant with IPERA. IPERA implementing guidance encourages the office
                  of the agency Inspector General to evaluate, as part of its review of these improper
                  payment elements, the accuracy and completeness of agency reporting and evaluate
                  agency performance in reducing and recapturing improper payments. The guidance
                  also encourages the office of the agency Inspector General, as part of its report, to
                  include any recommendations for actions to improve the agency’s performance in
                  reducing improper payments.


                  Review of Internal Controls
                  DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                  May 30, 2013, requires DoD organizations to implement a comprehensive system
                  of internal controls that provide reasonable assurance that programs are operating
                  as intended and to evaluate the effectiveness of the controls. DoD self-identified
                  internal control weaknesses related to improper payment identification and
                  reporting in its “FY 2013 Agency Financial Report.” Specifically, DoD reported that
                  until the Department has an auditable Statement of Budgetary Resources, DoD will




2 │ Report No. DODIG-2014-059
                                                                                         Introduction



not be able to fully reconcile outlays to ensure that all required payments are
reviewed for reporting purposes.  We are not making a recommendation to correct
the internal control weakness because DoD already has efforts underway to improve
the financial processes, including the Financial Improvement and Audit Readiness
initiative and systems modernization.

DoD did not meet the reduction targets for five of the eight payment programs
with established targets: Military Pay, Civilian Pay, Defense Finance and Accounting
Service (DFAS) Commercial Pay, U.S. Army Corps of Engineers (USACE) Travel Pay,
and DoD Travel Pay.     We will provide a copy of the report to the senior official
responsible for internal controls for USD(C)/CFO.




                                                                            Report No. DODIG-2014-059 │ 3
Finding




                  Finding
                  DoD Complied With Five of the Six Improper Payments
                  Elimination and Recovery Act Requirements

                  The USD(C)/CFO published the DoD FY 2013 AFR showing that DoD met five of
                  the six requirements of the IPERA. Specifically, DoD:

                                 •	 published an AFR,

                                 •	 conducted program-specific risk assessments,

                                 •	 published corrective action plans,

                                 •	 published improper payment estimates, and

                                 •	 reported improper payment rates of less than 10 percent.

                  However, DoD’s inability to ensure that all required payments were reviewed
                  resulted in estimates that were unreliable.3 Furthermore, DoD did not meet the
                  requirement to achieve the reduction targets4 for five of eight payment programs
                  with established targets: Military Pay, Civilian Pay, DFAS Commercial Pay, USACE
                  Travel Pay, and DoD Travel Pay. According to the DoD FY 2013 AFR:

                                 •	 Military Pay errors occurred because of high turnover in payroll clerks,

                                 •	 Civilian Pay input errors occurred by personnel in the human
                                     resources offices,

                                 •	 DFAS Commercial Pay input errors were caused by pay technicians,

                                 •	 USACE Travel Pay errors occurred because approving officials’ reviews
                                     of travel vouchers were not adequate to prevent improper payments, and

                                 •	 DoD Travel Pay errors occurred because approving officials’ reviews of
                                     travel vouchers were not adequate to prevent improper payments.




                  	 3	
                         We plan to issue another report that will address the completeness of the payments used for the estimates.
                  	 4	
                         OMB Circular A-123, Appendix C, Part II, defines “compliance” as having published and met annual reduction targets for
                         each program assessed to be at risk for improper payments.




4 │ Report No. DODIG-2014-059
                                                                                                Finding



Because of the errors, DoD did not achieve the improper payment reductions
intended in IPERA for these five programs and did not fully comply with IPERA in
FY 2013. In addition to IPERA requirements, the USD(C)/CFO met the OMB
requirement to report information on its efforts to recapture improper payments
within the DoD FY 2013 AFR.


DoD Published an Agency Financial Report for FY 2013
USD(C)/CFO complied with the IPERA requirement to publish an AFR. DoD issued
its FY 2013 AFR on December 16, 2013, and published the AFR on its website.
OMB Circular A-123, Appendix C, Part I, “Improper Payments Elimination and
Recovery,” April 14, 2011, requires that agencies report to the President and
Congress an estimate of the annual amount of improper payments for all programs
and activities determined to be susceptible to significant improper payments.
OMB Circular A-136 Revised, “Financial Reporting Requirements,” October  21,  2013,
required that DoD issue the report by December 16, 2013, in accordance with
“Controller Alert: Key Dates for Fiscal Year-End Reporting and the Financial Report
of the United States Government,” October 31, 2013. The Controller Alert
established a timeline for financial reporting 1 month later than usual because of the
Federal Government shutdown from a lapse in appropriations.


DoD Identified Nine Payment Programs Susceptible to
Improper Payments
The USD(C)/CFO met the IPERA requirement to conduct a program-specific
risk assessment. Because DoD determined that all DoD payment programs are
risk-susceptible, DoD did not perform a formal overall risk assessment to
determine payment programs susceptible to improper payments. Therefore, DoD
reported on each program in the AFR and met the intent of the law for performing
risk assessments.

According to the DoD FY 2013 AFR, “Since FY 2006, when OMB determined that
all DoD payments are risk-susceptible, the Department has maintained a more
conservative position than required by IPERA and considers all payment categories
as high risk.” Although DoD considered all payments risk-susceptible, the AFR
reported that DFAS, USACE, and the Defense Health Agency (DHA) evaluated risk
for their payment programs during FY 2013.




                                                                             Report No. DODIG-2014-059 │ 5
Finding



                  USD(C)/CFO identified the following nine programs, with combined outlays
                  totaling about $615.76 billion, as susceptible to improper payments:

                                •	 Military Health Benefits,

                                •	 Military Pay,

                                •	 Civilian Pay,

                                •	 Military Retirement,

                                •	 DoD Travel Pay,

                                •	 DFAS Commercial Pay,

                                •	 USACE Travel Pay,

                                •	 USACE Commercial Pay, and

                                •	 Navy Enterprise Resource Planning Commercial Pay.


                  Corrective Actions To Further Reduce
                  Improper Payments
                  USD(C)/CFO complied with the IPERA requirement to publish corrective action
                  plans in the DoD FY 2013 AFR. OMB Circular A-123, Appendix C, Parts I and II,
                  states that all programs and activities identified under the risk assessment as
                  being susceptible to improper payments must have a corrective action plan put in
                  place to reduce the risk of improper payments and to publish the corrective action
                  plan in the AFR.

                  USD(C)/CFO published corrective action plans in the DoD FY 2013 AFR for each
                  of the programs susceptible to significant improper payments. The DoD FY 2013 AFR
                  included corrective action plans for the primary root causes of improper payments
                  identified for each payment program. In most cases, corrective actions were in
                  progress through the year, using various improper payment identification and
                  reporting        processes. For example,     Military   Pay   corrective   actions   included
                  instituting more comprehensive training programs with standard desk procedures
                  to provide a reference for new clerks.         In addition, DoD, primarily through DFAS,
                  advises the Military Services of the results of payment reviews and the associated
                  root causes of the errors. DFAS provides the Military Service financial managers
                  with monthly reports on the results of statistical reviews, including the reasons for
                  and dollar value of errors and year-to-date trends, to improve their training plans.




6 │ Report No. DODIG-2014-059
                                                                                                   Finding



DoD Published Improper Payment Estimates But Data
Accuracy Concerns Exist
USD(C)/CFO met the IPERA requirement to publish improper payment estimates
for   programs   identified   as   susceptible   to   significant   improper   payments.
However, because DoD lacked an auditable Statement of Budgetary Resources,
DoD cannot provide assurance that the estimates were based on accurate and
complete data. This lack of an auditable Statement of Budgetary Resources made it
impossible for DoD to fully reconcile outlays to ensure that all required payments
were reviewed for reporting purposes. Therefore, the DoD improper payment
estimates in the FY 2013 AFR were unreliable. In addition, we identified deficiencies
in the methodologies for five of the nine payment program areas that could further
affect the reliability of DoD’s improper payment estimates:

        •	 The USACE Commercial Pay sample plan did not meet OMB sampling
           requirements, resulting in an insufficient sample size. Additionally, USACE
           did not have an OMB-approved sample plan for its Travel Pay outlays.
           Therefore, USACE cannot be assured that the results of the samples
           represented the entire universe of payments.        During the audit, USACE
           took action to correct these deficiencies for FY 2014 reporting.

        •	 DoD excluded one account from its Travel Pay estimate because
           one activity did not submit quarterly reports as required. Therefore,
           the DoD Travel Pay improper payment estimate was based on
           incomplete data, and the results are unreliable.

        •	 DoD based the DFAS Commercial Pay estimate on a sample design
           that selected invoices without considering the invoice dollar value.
           For example, a $10 million invoice had the same chance of being
           selected in a sample as a $100 invoice. DoD acknowledged in the
           FY 2013 AFR that a stratified design will “provide confidence” and plans
           to implement a new methodology in FY 2014.

        •	 DHA excluded about $1.7 billion in outlays identified in its risk
           assessment from its analysis. These outlays represented payments
           that DHA considered to be at low risk for improper payments.
           Additionally, DHA sampling sometimes excluded contract payments
           below a certain dollar threshold. For example, DHA excluded 11.3 million
           claims from one contract—57 percent of total claims—because each
           was below $100. Excluding a high volume of claims from the sampling
           universe will result in an unreliable improper payment estimate.



                                                                                Report No. DODIG-2014-059 │ 7
Finding



                  We are also performing the audit of “DoD Methodologies for Determining
                  Improper Payment Rates Under the Improper Payments Elimination and Recovery
                  Act” (Project No. D2014-D000CJ-0105.000). We will further review the accuracy
                  and completeness and will issue a separate report.


                  Reported Improper Payment Rates Were
                  Below the Office of Management and Budget
                  Established Threshold
                  USD(C)/CFO met the IPERA requirement to report improper payment rates of
                  less than 10 percent for each program reporting estimated improper payments.
                  Although the improper payment rates reported by DoD in the FY 2013 AFR were
                  under the required threshold, we identified deficiencies that cast doubt on the
                  reliability of the estimates used to compute the improper payment rates, as noted
                  in the previous section. OMB Circular A-123, Appendix C, Part II, requires agencies
                  to report a gross improper payment rate of less than 10 percent for each program
                  with an improper payment estimate. DoD did not report any payment programs with
                  improper payment rates above 10 percent. For example, seven of the nine payment
                  programs had improper payment rates at 0.32 percent or lower.  The DoD Travel Pay
                  program, which does not include USACE travel, had the highest reported improper
                  payment rate at 6.5 percent, and USACE travel payments reported 1.43 percent
                  improper payments.


                  DoD Did Not Meet Improper Payment Reduction
                  Targets for Five of Eight Payment Programs
                  DoD did not meet the reduction targets for five of the eight payment programs
                  with established reduction targets set in the FY 2012 AFR. DoD added the Navy
                  Enterprise Resource Planning Commercial Pay payment program, a ninth program,
                  during FY 2013 and therefore did not have an established reduction target.

                  FY 2013 was the first year that DoD did not meet reduction targets for
                  four payment programs: Military Pay, Civilian Pay, DFAS Commercial Pay, and
                  USACE Travel Pay. Additionally, DoD did not meet the reduction target for DoD
                  Travel Pay for the second consecutive year. The number of years the payment
                  programs were delinquent determines the required courses of action that DoD
                  must take.




8 │ Report No. DODIG-2014-059
                                                                                                            Finding



OMB Circular A-123, Appendix C, Part II, states that an agency has complied if
it has “published, and has met, annual reduction targets for each program assessed
to be at risk and measured for improper payments.” DoD set FY 2013 reduction
targets in the FY 2012 AFR. However, the percent of actual improper payments
was above the reduction targets for five payment programs reported in the
DoD FY 2013 AFR. The following table shows the FY 2013 reduction targets and
actual improper payments for the five payment programs.

Table. FY 2013 Annual Reduction Targets for High-Risk Programs
                                                                              FY13 Improper
                               FY13 Reduction      FY13 Actual Improper
   Program Not Met                                                           Payment Outlays
                               Target (Percent)     Payments (Percent)          ($Millions)
 Military Pay                         0.240                   0.29              $286.60
 Civilian Pay                         0.140                   0.17                96.40
 DFAS Commercial Pay                  0.020                   0.03               117.30
 USACE Travel Pay                     0.045                   1.43                    2.28
 DoD Travel Pay                       3.260                   6.50               474.80


In accordance with OMB Circular A-136, DoD identified the following root causes of
errors and corrective actions in the FY 2013 AFR for each of the five payment programs.


Military Pay Program
The FY 2013 AFR stated that overpayments comprised 90 percent of the Military
Pay improper payments that occurred in the separation debts (out-of-service
debts established after a member has left the Service) and through in-service debt
collections reported by the Military Services. The FY 2013 AFR attributed the
errors to a high turnover in military payroll clerks throughout the Military Services.
DoD’s stated corrective actions included instituting more comprehensive training
programs to reduce errors related to separation debts. To reduce improper
payments        in   the   Military    Pay    program   and     become    compliant    with    the
requirements of the IPERA, the USD(C)/CFO should coordinate with the Military
Departments and Defense Agencies to develop metrics and quality assurance goals.


Civilian Pay Program
The FY 2013 AFR identified that Civilian Pay input errors by personnel in the
human resources offices caused improper payments by allowing many overseas
employees to receive unauthorized Living Quarters Allowance. DoD’s stated
corrective actions included considering the use of pay audits when an employee




                                                                                         Report No. DODIG-2014-059 │ 9
Finding



                  left his or her overseas position. To reduce improper payments in the Civilian Pay
                  program and become compliant with the requirements of the IPERA, the
                  USD(C)/CFO should coordinate with the Military Departments and Defense
                  Agencies to develop metrics and quality assurance goals.


                  DFAS Commercial Pay Program
                  The FY 2013 AFR stated that pay technician input errors accounted for the
                  majority of improper payments within DFAS Commercial Pay. DoD’s stated
                  corrective actions included ongoing training for pay technicians. To reduce
                  improper payments in the DFAS Commercial Pay program and become compliant
                  with the requirements of the IPERA, the USD(C)/CFO should coordinate with
                  the Military Departments and Defense Agencies to develop metrics and quality
                  assurance goals.


                  USACE Travel Pay Program
                  According to the FY 2013 AFR, USACE Travel Pay errors generally occurred
                  because travelers made mistakes when completing their travel vouchers and
                  because approving officials did not properly review travel vouchers before approval.
                  DoD’s stated corrective actions included educating travelers and travel authorizing
                  officials through required training and certification, as needed. To reduce improper
                  payments in the USACE Travel Pay program and become compliant with the
                  requirements        of   the    IPERA,   the   USD(C)/CFO       should   coordinate    with   the
                  Military Departments and Defense Agencies to develop metrics and quality
                  assurance goals.


                  DoD Travel Pay Program
                  The FY 2013 AFR stated that DoD Travel Pay errors occurred because travelers
                  made mistakes when completing their vouchers. In addition, approving officials
                  did not identify travelers’ errors before DoD reimbursed the travelers. DoD’s stated
                  corrective actions included error trend report reviews and DFAS post-payment
                  reviews        by   personnel    who     present   preventive    measure    training    sessions.
                  USD(C)/CFO should also coordinate with the Director of OMB to review the DoD
                  Travel Pay program and determine whether additional funding would help the
                  agency come into compliance with Public Law 111-204.




10 │ Report No. DODIG-2014-059
                                                                                                  Finding



Increased Improper Payments
As a result, improper payments increased in the Military Pay, Civilian Pay,
DFAS Commercial Pay, USACE Travel Pay, and DoD Travel Pay programs.
DoD did not achieve the improper payment reductions intended in IPERA for
these five programs or fully comply with IPERA in FY 2013.             According to the
DoD FY 2013 AFR, DoD would not have made these improper payments if the
high turnover of Military Pay payroll clerks received more comprehensive training
to reduce overpayments, if personnel in the human resources offices input
Civilian Pay information more timely or accurately into the pay systems, and if
pay   technician   input   errors   were   reduced     within   DFAS   Commercial   Pay.
In addition, errors would not have occurred in DoD Travel Pay and USACE
Travel Pay, if the authorizing or certifying officials had conducted adequate
reviews of travel vouchers before payment.


DoD Also Met an Additional Office of Management and
Budget Requirement To Report on Efforts To Recover
Improper Payments
USD(C)/CFO met the OMB Circular A-123, Appendix C, Part I requirement to
report information on efforts to recapture improper payments. IPERA requires
agencies to conduct payment recapture audits for each program that expends
$1 million or more annually if conducting such audits would be cost-effective.
The OMB guidance states that agencies should strive to achieve an annual recapture
target of 85 percent by FY 2013. DoD reported payment recapture audit results
for two programs in its FY 2013 AFR: DoD Travel Pay, which identified $1.5 million
for recovery, and USACE Commercial Pay, which reported zero dollars identified for
recovery. These recapture audits did not achieve the 85 percent recovery target.
However, the travel pay recovery audit was in its first year of a pilot program, and the
USACE recovery audit resulted in nothing to recover.

DoD also reported overpayments recovered outside of payment recapture audits
for seven programs. OMB Circular A-123, Appendix C, Part II, states that the AFR
should include a description of the justification and analysis when the agency
determines that payment recapture audits are not cost-effective. Although DoD
did not include this justification in the AFR, USD(C)/CFO personnel stated that
conducting payment recapture audits for the seven programs as defined in
OMB  Circular  A-123 was not cost-effective because the DoD programs were
achieving the same or better results through other means. The FY 2013 AFR




                                                                              Report No. DODIG-2014-059 │ 11
Finding



                  included descriptions of some of the techniques used to identify and
                  recapture overpayments, which resulted in $529.5 million identified and
                  $491.3 million recovered.


                  Conclusion
                  The USD(C)/CFO met five of the six requirements of the IPERA.  Specifically, DoD
                  published an Annual Financial Report, corrective action plans, improper payment
                  estimates, and conducted program-specific risk assessments.  DoD also reported
                  improper payment rates of less than 10 percent. However, DoD’s inability to
                  ensure that all required payments were reviewed resulted in estimates and rates
                  that were unreliable. Furthermore, DoD did not meet the reduction targets for
                  five of its eight payment programs with established targets. OMB Circular A-123,
                  Appendix C, Parts I and II, provides the remediation procedures for cases of
                  non-compliance with the IPERA.


                  Remediation for Non-Compliance
                  For agencies that are not compliant with Improper Payments Information Act for
                  1 fiscal year, OMB Circular A-123, Appendix C, Parts I and II, states that:

                                 Agencies that are not compliant with Improper Payments
                                 Information Act must complete several actions. For agencies
                                 that are not compliant for one fiscal year, within 90 days of the
                                 determination of non-compliance, the agency shall submit a plan
                                 to the Senate Homeland Security and Government Affairs
                                 Committee and the House Committee on Oversight and Governmental
                                 Reform describing the actions that the agency will take to
                                 become compliant. The plan shall include:

                                 •	   Measurable milestones to be accomplished in order to achieve
                                      compliance for each program or activity;

                                 •	   The designation of a senior agency official who shall be
                                      accountable for the progress of the agency in coming into
                                      compliance for each program or activity; and

                                 •	   The establishment of an accountability mechanism, such
                                      as a performance agreement, with appropriate incentives
                                      and consequences tied to the success of the senior agency
                                      official in leading agency efforts to achieve compliance for each
                                      program and activity.




12 │ Report No. DODIG-2014-059
                                                                                                             Finding



DoD was not compliant with the requirement to meet reduction targets for
Military Pay, Civilian Pay, DFAS Commercial Pay, USACE Travel Pay, and DoD
Travel Pay.     As required by Public Law 111-204 and implementing guidance, the
USD(C)/CFO should develop and submit a plan to the appropriate congressional
committees on the actions that the agency will take to become compliant.

In addition, for agencies that are not compliant with Improper Payments Information
Act for 2 fiscal years, OMB Circular A-123, Appendix C, Parts I and II, states that:

              Agencies that are not compliant for two consecutive fiscal years for
              the same program or activity, the Director of OMB will review the
              program and determine if additional funding would help the agency
              come into compliance.


For the second fiscal year, DoD was not compliant with the requirement to meet
reduction targets for DoD Travel Pay.


Recommendations, Management Comments, and
Our Response
We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD:

     1.	   Coordinate with Military Departments and Defense Agencies to address
           errors in the Military Pay program. Specifically:

           a.	Develop        metrics    and    quality     assurance     goals    as     well    as
                 programmatic corrective action plans to reduce errors related
                 to separation debts, including holding those officials financially
                 liable where appropriate.

           b.	Develop and submit the required remediation plan to the
                 appropriate      congressional     committees         within     90    days     of
                 this report.

     2.	 Coordinate with Military Departments and Defense Agencies to
           address errors in the Civilian Pay program. Specifically:

           a.	Develop        metrics    and    quality     assurance      goals    as    well    as
                 programmatic       corrective    action    plans   for    input       errors    by
                 personnel in the human resources offices, including holding
                 those officials financially liable where appropriate.




                                                                                         Report No. DODIG-2014-059 │ 13
Finding



                                 b.	Develop and submit the required remediation plan to the
                                    appropriate     congressional   committees        within    90    days   of
                                    this report.

                         3.	 Coordinate with Military Departments and Defense Agencies to
                                 address errors in the Defense Finance and Accounting Service
                                 Commercial Pay program. Specifically:

                                 a.	Develop     metrics   and   quality   assurance     goals   as    well   as
                                    programmatic corrective action plans for input errors, including
                                    holding those officials financially liable where appropriate.

                                 b.	Develop and submit the required remediation plan to the
                                    appropriate congressional committees within 90 days of this report.

                         4.	     Coordinate with the Military Departments and Defense Agencies to
                                 address errors in the U.S. Army Corps of Engineers Travel Pay
                                 program. Specifically:

                                 a.	Develop     metrics   and   quality   assurance     goals   as    well   as
                                    programmatic corrective action plans for authorizing/certifying
                                    officials certifying vouchers that result in improper payment,
                                    including      holding      those     officials     financially     liable
                                    where appropriate.

                                 b.	Develop and submit the required remediation plan to the
                                    appropriate     congressional   committees        within    90    days   of
                                    this report.


                  Under Secretary of Defense (Comptroller)/Chief Financial
                  Officer, DoD Comments
                  The Deputy Chief Financial Officer, responding for the Under Secretary of
                  Defense (Comptroller)/Chief Financial Officer, DoD, partially agreed with
                  recommendations 1, 2, 3, and 4, stating that metrics were previously established
                  and that new metrics were not necessary.  The Deputy Chief Financial Officer
                  agreed to develop quality assurance goals and programmatic corrective action
                  plans to reduce errors and to hold those officials financially liable where
                  appropriate.  In addition, the Deputy Chief Financial Officer stated the Office of
                  the Under Secretary of Defense (Comptroller) will submit a remediation plan to




14 │ Report No. DODIG-2014-059
                                                                                              Finding



appropriate congressional committees within 90 days of the final report.
According to the Deputy Chief Financial Officer, the plan will include working
with the Office of Management and Budget to establish realistic thresholds
around reduction targets.


Our Response
Comments from the Deputy Chief Financial Officer addressed all specifics of
the recommendations. While the Deputy Chief Financial Officer did not agree to
develop metrics, stating that metrics were already established, he did agree with
recommended actions to remediate the identified causes of improper payments.
Those actions, and the additional action of working with the Office of Management
and Budget to refine the reporting criteria regarding reduction targets, met the
intent of the recommendations. Therefore, no further comments are required.

     5.	   Coordinate with the Director of Office of Management and Budget to
           review the Defense Finance and Accounting Service Travel Pay program
           and determine whether additional funding would help the agency
           comply with Public Law 111-204 to meet payment reduction targets.


Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments
The Deputy Chief Financial Officer, responding for the Under Secretary of
Defense (Comptroller)/Chief Financial Officer, DoD, agreed, stating that the Office
of the Under Secretary of Defense (Comptroller) will work with the Office of
Management and Budget to review the Defense Finance and Accounting Service
Travel Pay program to help the agency comply with Public Law 111-204 to meet
payment reduction targets.


Our Response
Comments from the Deputy Chief Financial Officer addressed all specifics of the
recommendations. Therefore, no further comments are required.




                                                                          Report No. DODIG-2014-059 │ 15
Appendix




                  Appendix
                  Scope and Methodology
                  We conducted this performance audit from November 2013 through March 2014
                  in accordance with generally accepted government auditing standards. Those
                  standards require that we plan and perform the audit to obtain sufficient,
                  appropriate evidence to provide a reasonable basis for our findings and conclusions
                  based on our audit objectives. We believe that the evidence obtained provides
                  a reasonable basis for our findings and conclusions based on our audit objectives.

                  To determine DoD compliance with IPERA requirements, we obtained and
                  reviewed the “Improper Payment and Payment Recapture Programs” report
                  published in Addendum A, “Other Accompanying Information,” of DoD FY  2013 AFR.
                  We also obtained and reviewed Public Law 107-300, “Improper Payments
                  Information Act of 2002,” November 26, 2002, and Public Law 111-204, “Improper
                  Payments Elimination and Recovery Act of 2010,” July 22, 2010.  We also reviewed
                  implementing guidance in OMB Circular A-123, Appendix C, “Requirements
                  for Effective Measurement and Remediation of Improper Payments,” Parts I
                  and II, April  14,  2011, and OMB Circular A-136 Revised, “Financial Reporting
                  Requirements,”   October  21,  2013.     We    interviewed   personnel    from   the
                  USD(C)/CFO, DFAS, DHA, and USACE, and requested information during our
                  review of methodologies used to conduct program sampling and projection.
                  We gathered and reviewed the FY 2013 documentation used to support the
                  risk assessments and improper payment rates and estimates reported in
                  the DoD  FY  2013  AFR. We also reviewed corrective action plans, reduction
                  targets, and payment recapture efforts reported in the DoD  FY  2013  AFR.


                  Use of Computer-Processed Data
                  We relied on computer-processed data included in the DoD  FY  2013  AFR to
                  perform this audit. Specifically, we relied on the estimates of improper
                  payments included in the DoD  FY  2013 AFR. However, we identified inaccuracies
                  in the data that led us to conclude that the data and the resulting estimates
                  were unreliable. The unreliable data and estimates are discussed in the finding
                  of this report. The reliability of the data did not affect other areas of compliance.




16 │ Report No. DODIG-2014-059
                                                                                               Appendix



Use of Technical Assistance
During the audit, we requested and received technical assistance from the DoD
Office of Inspector General Quantitative Methods Division. Quantitative Methods
Division analysts reviewed the sampling plans for eight of the nine programs that
reported improper payment estimates in the DoD FY  2013 AFR to determine
whether their sampling methodology resulted in a statistically valid sample size in
accordance with OMB guidance.  USD(C)/CFO did not provide the audit team with
a sampling plan for USACE Travel Payments because USACE did not prepare and
submit a FY 2013 plan.  Quantitative Methods Division analysts determined that
one sampling plan, USACE Commercial Payments, contained an error that resulted
in the statistical sample not meeting OMB criteria.


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) issued five reports discussing
compliance with improper payment identification and reporting requirements.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.


GAO
Report No. GAO-13-227, “Significant Improvements Needed in Efforts to Address
Improper Payment Requirements,” May 13, 2013

Report No. GAO-09-442, “Significant Improvements Needed in DOD’s Efforts to
Address Improper Payment and Recovery Auditing Requirements,” July 29, 2009


DoD IG
Report No. DODIG-2013-054, “DoD Efforts to Meet the Requirements of the
Improper Payments Elimination and Recovery Act in FY 2012,” March 13, 2013

Report No. DODIG-2012-065, “DoD Compliance With the Requirements of the
Improper Payments Elimination and Recovery Act,” March 15, 2012

Report No. D-2011-050, “DoD Needs to Improve High Dollar Overpayment Review
and Reporting,” March 16, 2011




                                                                             Report No. DODIG-2014-059 │ 17
Management Comments




                  Management Comments
                  Under Secretary of Defense (Comptroller)/Deputy
                  Chief Financial Officer, DoD




18 │ Report No. DODIG-2014-059
                                              Management Comments



Under Secretary of Defense (Comptroller)/Deputy
Chief Financial Officer, DoD (cont’d)




                                              Report No. DODIG-2014-059 │ 19
Management Comments



                  Under Secretary of Defense (Comptroller)/Deputy
                  Chief Financial Officer, DoD (cont’d)




20 │ Report No. DODIG-2014-059
                                              Management Comments



Under Secretary of Defense (Comptroller)/Deputy
Chief Financial Officer, DoD (cont’d)




                                              Report No. DODIG-2014-059 │ 21
Acronyms and Abbreviations




                  Acronyms and Abbreviations
                             AFR DoD Agency Financial Report
                           DFAS Defense Finance and Accounting Service
                            DHA Defense Health Agency
                          IPERA Improper Payments Elimination and Recovery Act
                           OMB Office of Management and Budget
                          USACE U.S. Army Corps of Engineers
                    USD(C)/CFO Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD




22 │ Report No. DODIG-2014-059
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
